<html>
<title> - DOCUMENT PRODUCTION STATUS UPDATE: OPM, FBI AND GSA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   DOCUMENT PRODUCTION STATUS UPDATE:
                            OPM, FBI AND GSA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2019

                               __________

                           Serial No. 116-42

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                  
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-283 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>                         
                  
                  
                  
                  
                  COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                     Wendy Ginsberg, Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John Sarbanes, Maryland              Thomas Massie, Kentucky
Jackie Speier, California            Jody Hice, Georgia
Brenda Lawrence, Michigan            Glenn Grothman, Wisconsin
Stacey Plaskett, Virgin Islands      James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen Lynch, Massachsetts          W. Gregory Steube, Florida
Jamie Raskin, Maryland
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2019....................................     1

                           Witness Testimony:

Mr. Stephen Billy, Deputy Chief of Staff, U.S. Office of 
  Personnel Management
Oral Statement...................................................     8
Mr. Robert Borden, Chief of Staff, General Services 
  Administration
Oral Statement...................................................     9
Ms. Jill C. Tyson, Assistant Director, Office of Congressional 
  Affairs, Federal Bureau of Investigation
Oral Statement...................................................    10

The written opening statements and written statements for 
  witnesses are available at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record during this hearing are 
  listed below and available at: https://docs.house.gov.

  * QFR's: From Chairman Cummings to Jill C. Tyson, Assistant 
  Director, Office of Congressional Affairs, FBI

  * QFR's: From Chairman Cummings to Robert Borden, Chief of 
  Staff, General Services Administration


 
          DOCUMENT PRODUCTION STATUS UPDATE: OPM, FBI AND GSA

                              ----------                              


                        Thursday, June 27, 2019

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly (chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Raskin, Cummings, 
Meadows, Hice, and Jordan.
    Mr. Connolly. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    The subcommittee is convening a hearing on the document 
production efforts on the Office of Personnel Management, the 
Federal Bureau of Investigation, and the General Services 
Administration in response to various committees' and 
subcommittee document requests.
    I now recognize myself for an opening statement.
    I want to thank the witnesses for being here, although I 
know there could be more comfortable hearings to attend. I 
regret we need to have this hearing. We're here because OPM, 
the FBI, and GSA have not substantially complied with the 
committee's request for documents from several months ago. 
We've witnessed a stunning lack of cooperation across the 
administration in response to multiple congressional 
investigations. For this committee to perform its important 
constitutional oversight mission, we must have documents and 
information requested from agencies and that, in turn, requires 
cooperation.
    When the committee or a subcommittee sends a request for 
documents or a written response for answers, we expect 
meaningful and timely compliance and not stall tactics and 
obfuscation. It is because of a breakdown in that process, you 
three are here today.
    Today, we'll be asking each of you to justify your 
respective agency's troublesome production track record and to 
identify those hurdles preventing full compliance and to offer 
tangible solutions so the committee can fulfill its 
constitutionally mandated oversight duty.
    This morning, we will examine the status of responses to 
three committee and subcommittee investigations. First, the 
committee is investigating the administration's plan to abolish 
the Office of Personnel Management. We believe, on our side, 
certainly, it's a reckless proposal that lacks merit, 
justification, or a coherent rationale. Frankly, doubts have 
been raised about it on a bipartisan basis.
    The subcommittee has requested basic documents from OPM, an 
agency that runs programs that serve our Federal Government's 
2.7 million active employees, more than 2.5 million Federal 
retirees, and more than 8 million family members who receive 
healthcare benefits. We requested documents that any project 
manager would have required for even a simple restructuring of 
an organization. We asked for a legal analysis of the 
administration's authority to eliminate OPM, a cost-benefit 
analysis, and a timeline.
    These aren't intrusive requests. We wanted to know whether 
this would work and whether the administration had done its 
homework such that it could persuade us as to the merits. We've 
concluded it won't and they haven't. We've received next to 
nothing in response to this straightforward document request, 
and no information provided adequately demonstrates how this 
plan would improve services to current Federal or former 
Federal employees and their families.
    If we've been unclear thus far, let me take the opportunity 
to clarify that, from our point of view, this half-baked 
proposal is going to be dead on arrival here in Capitol Hill.
    The administration's intention to dismantle OPM is 
reckless. OPM's acting director has reportedly boasted about, 
quote, planning to play chicken with Congress, unquote, by 
furloughing or taking hostage 150 employees of OPM if Congress 
did not provide the administration with authority to eliminate 
the agency by October 1.
    This is not a game. These are real lives at stake. OPM's 
blanket refusal to provide the information the committee has 
requested is unacceptable. OPM offered additional records just 
this week. It's ironic that the new records make reference to 
the documents we've been asking for without providing them.
    The latest documents convince us even more that the 
administration is attempting an end run in order to eliminate 
more than 130 years of merit-based nonpartisan civil service.
    Second, the committee is investigating the abrupt decision 
to abandon the long-term plan to move the FBI headquarters to a 
suburban location and replace it with a more costly plan to 
keep Pennsylvania Avenue location, demolish the existing J. 
Edgar Hoover Building, and construct a new facility on the same 
site. Now, in order to make that pivot, the administration had 
to abandon some of the compelling criteria that had dominated 
this RFP for well over eight years, and they included 
consolidation of the work force, they included modernization 
taking cognizance of 21st century forensics and DNA research, 
and getting safe setbacks which cannot be achieved at the 
current location, which has inherently urban setbacks that are 
inherently insecure.
    In February 2018, I wrote the GSA Inspector General and 
requested that she investigate the GSA's decisionmaking role 
and the role of the White House, if any, in influencing this 
decision. In August 2018, the inspector general issued a report 
that noted inaccuracies in the cost estimates presented to 
Congress to the tune of more than a half a billion dollars, and 
revealed that the President was personally participating in 
discussions regarding this revised plan, and there are pictures 
to prove it.
    Yet despite all parties within the administration claiming 
the FBI alone made the decision, the FBI has turned over just 
1,300 pages in the last 3-1/2 months, and that includes a last-
minute production last night. I might add, in talking to the 
FBI, I was assured that they have gone through and filtered 1.5 
million documents. And when we had that conversation, we were 
in possession of 490 of them. Some of them redacted; some of 
them redundant.
    While we can admire the production going on at the FBI, 
we're not so sure we admire the responsiveness to this 
committee's request. To say that Congress continues to have 
questions about the abrupt and rushed reversal in the FBI's 
years' long plan and that the change of heart involved direct 
communications with the chief executive of the country is an 
understatement.
    Third, the committee is actively investigating the Federal 
lease of the old post office building between GSA and the Trump 
Organization. Because President Trump refused to completely 
divest himself of his global web of business interests, he's 
currently both the landlord and the tenant, technically, of 
what is now called the Trump International Hotel.
    To date, GSA has refused to turn over financial documents 
relevant to the committee's investigation that would shed light 
on any potential conflicts of interest or constitutional 
concerns with respect to the emolument clause.
    Finally, I want to address a troubling development across 
several committee and subcommittee investigations. All three 
agencies represented here today--OPM, GSA, and the FBI--have 
suggested that they are withholding many documents because they 
are draft documents regarding decisionmaking.
    There's a problem. That decisionmaking is exactly the focus 
of the committee and subcommittee's investigations. It's not a 
new thing to this Congress. Whether it's the decision to 
abolish a Federal agency that serves the Federal work force, a 
multibillion dollar construction decision affecting thousands 
of FBI staff and, frankly, the security and safety of the 
country, or the decision to allow our President to serve as 
both landlord and tenant of his own hotel, which is on 
government-owned property, such decisionmaking documents are 
critical to our examination and investigation.
    Last week, as I said, the FBI Deputy Director David Bowdich 
called me personally to discuss the agency's compliance or lack 
thereof. And, as I said, while I thanked him for the outreach 
and the 1.5 million documents he said that have been examined, 
I did give him specific directions in terms of what would 
satisfy the committee's inquiry and, unfortunately, those 
conditions have not been met.
    It's my hope that today's hearing will provide some answers 
and prod our fellow Federal employees to cooperate with the 
committee of jurisdiction so that we don't have to resort to 
methods of compulsion.
    And with that, I turn to my distinguished ranking member, 
my friend, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership.
    I thank all of you for being here this morning. Candidly, 
document production is something that I know a little bit 
about, and I guess I've expressed more than a little 
frustration with some document production. So let me just--
instead of doing prepared remarks, let me perhaps get into 
where the chairman and I agree.
    If any of you are here today to say that it's part of a 
deliberative process that somehow Congress can't see the 
documents, I would urge you strongly not to go there. You will 
find the full force of both Republicans and Democrats coming 
together to acknowledge that that is not a legitimate reason 
for you to withhold documents.
    Second, if you think that somehow the lack of giving 
documents to this committee is serving a greater purpose, I 
would assure you that it is not.
    Ms. Tyson, you've been very helpful, and I want to just say 
thank you for your help in trying to get through some of the 
documents to address some of the concerns. And certainly, as 
with regards to the FBI building, in working with Mr. Borden 
and GSA, guys, let me just tell you, I don't agree that we 
should be building the FBI building and tearing it down and 
doing it there, and I can tell you that I have been vocal about 
that. I think it's the wrong decision from a real estate 
perspective. I think it's a wrong decision in terms of 
efficiency.
    That being said, it's not my call. What is my call is 
understanding the parameters that went into that decision. I 
can tell you, in talking to the administration at the highest 
levels, they're agnostic on whether it gets built in D.C. or 
Virginia or Maryland or wherever it needs to go. I think most 
of this, from what I understand, Ms. Tyson, was more of an FBI 
decision than it was an executive branch decision at 1600 
Pennsylvania Avenue, and so keeping documents would allude to 
nefarious purposes that don't exist.
    And so the more that you can be transparent in that, I 
think on the Democrat side, they will have a divided concern on 
whether the FBI goes in D.C. or somewhere else, in Maryland or 
Virginia. I'm not divided, and on our side, I think what you do 
is keep a small footprint for the FBI headquarters to allow 
them to work with DOJ and you move the majority of the FBI 
folks to a more efficient location. That's my take, but again, 
we have to have the documents to do that.
    As it relates to the Trump Hotel and some of those 
documents that are in the custody of GSA or others, guys, let 
me just tell you, everybody would have had to have believed 
that this President was going to get elected when he started 
those negotiations, and nobody believed it. And so holding back 
documents on potentially nefarious purposes for the Trump 
Hotel, I mean, we were all celebrating the fact that the old 
post office was going to be renovated and used for something 
other than a food court and a museum. Everybody was applauding 
that, including the Mayor of D.C., until the President became 
the President.
    So giving us documents that allow us to get to the bottom 
of this and that they're not fully redacted is key.
    From an OPM standpoint, here's one of the areas that I'm 
very troubled. I don't agree with the decision to take the 
security clearances and move them to DOD. I think I've been 
very open about that.
    Here's the problem. Congress voted for that, and now what 
we've got is we've got a situation where, over the objection of 
Mr. Connolly and I, they voted to move the security clearances 
to DOD, now we're implementing that and we're coming up with 
all kinds of problems.
    I was very troubled at the IT capacity of OPM, and we have 
got to do something, whether that's consolidation, whether 
that's moving the GSA, but let me just tell you, we have a 
Third World computing system for OPM. No wonder we got hacked, 
and maybe we're not as vulnerable to hacks because we have a 
Third World computing system, because all the hackers are on a 
much more complicated system. So in going there, I just want to 
say, thank you to the OPM folks for allowing me to really see 
firsthand what is there.
    We've got to find a solution, and this is not about 
downsizing jobs or getting rid of jobs. In fact, I want the OPM 
folks to know that that is very, very clear, from my 
standpoint. We want to make sure that their jobs are protected. 
At the same time, we cannot continue to do business the way 
we're doing business from a computing standpoint at OPM, and so 
I'm using that to say, the more documents that you give us in a 
transparent fashion, even if you think that it gives the wrong 
impression, it is better than the impression of us not getting 
the documents believing that there are bad things that you're 
keeping from us. Does that make sense?
    And so as you have your testimony today, if you do not go 
to the deliberative process and that we don't have a right to 
it, because you will find a very unified pushback.
    And with that, I will yield back.
    Mr. Connolly. I thank my distinguished ranking member, and 
also thank him, he is consistent, and I really want to thank 
him and express my admiration.
    I mean, look, whether it's a Democratic administration or a 
Republican administration, all of us have a stake in the 
integrity of a document request, and all of us need to be 
consistent in insisting on compliance with those requests. What 
we end up doing with it, that's a different matter. We may part 
ways on some decisions, but----
    Mr. Meadows. Do say.
    Mr. Connolly [continuing]. but although, I would agree with 
almost everything you said, both about the FBI and OPM. I mean, 
no one's denying there's a problem, but how we get at the 
solution, has to be examined, and that's really what we're 
trying to do.
    I see the distinguished chairman of the full committee is 
here, and I want to give Mr. Cummings an opportunity to make 
whatever statement he wishes to make with respect to the 
subject.
    Welcome, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I want 
to commend you, Chairman Connolly, for holding this hearing, 
and I want to commend Mr. Meadows, our ranking member, for--not 
only for his statement that he just made, but for his spirit of 
cooperation.
    Under this administration, we're witnessing simply a 
stunning lack of cooperation that is hampering multiple 
congressional investigations, and appears to be a part of a 
large scale coordinated pattern of obstruction. I do not say 
that lightly. It is frustrating when you cannot get documents. 
It hampers us in doing our job, and it literally takes away 
power from the Congress of the United States of America. It 
takes away our power, clear and simple.
    The documents that we seek in the investigations we will 
discuss today are documents that we would have received in 
previous administrations, many of them without any redactions 
and without a fight. Some of them are even the types of 
documents that we did receive in the beginning of the Trump 
administration before the President declared that he and his 
administration were, and I quote, fighting all subpoenas.
    Come on now. This is the United States of America. Fighting 
all subpoenas? Congress has a constitutional duty. We have a 
duty to conduct oversight over decisions that have been made in 
the executive branch, especially regarding leases or contracts 
that impact taxpayers. It is our job to ensure that these 
decisions are being made in the most cost-effective and 
efficient fashion without favoritism or abuse.
    The committee is conducting two separate investigations 
involving GSA. One of its role in the decision to cancel the 
plan to move the FBI headquarters to a new site, suburban 
campus, and the other of GSA's management of the lease for the 
Trump Hotel in the District of Columbia.
    My interest in these topics is not new and should not be a 
surprise to GSA. I wrote my first letter on the Trump Hotel and 
questions about a possible breach of the lease shortly after 
the President was elected in the fall of 2016. Along with 
several Members of Congress, I first wrote to Administrator 
Emily Murphy, raising questions about the FBI headquarters 
eight months ago. Eight months ago.
    After becoming the committee chairman, Chairman Connolly, 
in his great wisdom, and I and others sent new request letters 
on these topics. One category of documents we have sought are 
monthly reports that the Trump Organization is required to file 
to GSA about the Trump Hotel in the District of Columbia.
    At the beginning of the administration, we received those 
reports, but then something worrisome happened. Without 
explanation, GSA reversed course and just stopped producing 
them. It is now two years later.
    After Democrats were voted into the majority, we again 
requested that these monthly financial reports be done, but 
now, instead of producing these documents, GSA questioned the 
committee, and I quote, legitimate legislative purpose, end of 
quote. And I got to tell you, at some point--again, this is the 
kind of language that becomes very frustrating, and the courts 
have ruled on this very issue.
    If that language sounds familiar, it is because it is the 
same language and the same baseless line of obstruction that 
the President's personal attorneys had been using to challenge 
Congress' authority to conduct oversight in other areas. A 
Federal district court has already rejected this argument 
decisively. I mean it was an ace, slam dunk, airtight case. I 
told my staff, I've been practicing law for 40 years, and I've 
never seen a case this tight, in Missouri. And he wrote this, 
he says, as long--and this is a quote: As long as Congress 
investigates on a subject matter on which legislation could be 
had, Congress acts as contemplated by Article I of the 
Constitution, end of quote.
    To our witnesses here today, as I close, any other 
executive branch agency that may be watching, we want the 
message to be abundantly clear and I have no doubt about it: 
Congress must obtain the documents necessary to fulfill our 
constitutional responsibilities. Stop obstructing us. Stop 
blocking us from doing the job that the voters sent us here to 
do and to do the job that we swore we would do. If you will not 
provide those documents willfully, willingly, we will issue 
subpoenas to compel them.
    In closing, let me say this: Today's hearing is not the end 
of the story. I appreciate that the agencies have made some 
movement toward compliance in anticipation of today's hearing, 
but what you have offered is simply not enough. You have not 
committed to provide us with the unredacted documents that 
actually explain your decisions.
    And to Mr. Chairman and to Mr. Meadows, again, I thank you 
for the cooperative spirit that we have on this subcommittee. I 
got to tell you, when I listen to Meadows and I listen to 
Connolly, they're bending over backward to work with you all, 
but at some point, you know, you feel like you're getting 
slapped in the face. I don't know how they feel, but that's how 
I feel. And it's as if you're thumbing your nose at us, say, we 
don't care. Well, we got to do better than that.
    Last point. You know, a lot of times, people do things and 
they assume--they'll say, oh, Congress, I did this. I sent you 
a million pieces. Well, you're supposed to do that. I mean, 
that's what you are paid to do. You don't get any brownie 
points for doing what you're supposed to do. If any Member of 
Congress--if our employees are not doing the things that 
they're supposed to do, they're fired, period. And we have got 
to get back to what is normal.
    I know there are going to be debates, but as Mr. Meadows 
said, don't throw stuff out there that just goes against court 
decisions, I mean, things that you know is basically rope-a-
doping.
    And with that, Mr. Chairman, I yield back.
    Mr. Connolly. I thank the distinguished chairman, and thank 
him very much for his guidance on the subject, because I think 
it's a widely shared view, certainly on this subcommittee, as 
expressed by my distinguished ranking member and myself.
    I want to now turn to the testimony of our witnesses. We 
have three witnesses: Mr. Stephen Billy, who's the deputy chief 
of staff of the Office of Personnel Management; Jill Tyson, 
who's the assistant director of the Office of congressional 
Affairs for the Federal Bureau of Investigation; Robert Borden, 
the chief of staff of the General Services Administration.
    If the three of you would rise and raise your right hand; 
it is the tradition of our committee to swear in witnesses.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that all three answered in the 
affirmative. And I thank you, and if you would be seated.
    Without objection, your written statements will be entered 
into the record in full, and we now are going to give you 5 
minutes to summarize that testimony. And we'll begin with you, 
Mr. Billy.

STATEMENT OF STEPHEN BILLY, DEPUTY CHIEF OF STAFF, U.S. OFFICE 
                    OF PERSONNEL MANAGEMENT

    Mr. Billy. Thank you, Mr. Chairman.
    Chairman Connolly, Ranking Member Meadows, and members of 
the subcommittee, thank you for the opportunity to discuss with 
you today the administration's plan to modernize the 
infrastructure that supports our merits-based civil service 
system in the entire Federal work force.
    I appear before you today just weeks after Acting Director 
Margaret Weichert testified before this subcommittee. At that 
hearing, the committee expressed the need for additional 
information to help provide clarity behind the proposed reform. 
In our effort to further accommodate the committee and be as 
transparent as possible, OPM has redoubled their efforts and is 
in the process of continuing to gather and provide additional 
responsive documents to this committee.
    The discussion during the recent hearing clarified that 
broad and bipartisan agreement exists, that fundamental changes 
are needed to ensure we are capable of meeting the 
responsibility entrusted to us under the Civil Service Reform 
Act of 1978 to promote an efficient civil service.
    There's reason for optimism that now, possibly for the 
first time in decades, Congress seems willing to acknowledge 
root causes in a way that will further the ability of the 
executive branch to manage the Federal personnel system and 
advance merit system principles through improving hiring, 
reskilling, performance management, and the processing of 
retirement and healthcare benefits.
    OPM is committed to working with the subcommittee in 
providing you information. As the acting director expressed 
last month, OPM leadership fully respects the oversight 
function of Congress and this committee.
    In line with Chairman Connolly's desire for a reset on the 
OPM reorganization discussions, OPM is committed to continuing 
to engage with members of the committee and committee staff. In 
fact, the agency has already invited multiple Members of 
Congress to visit our offices for a briefing on the OPM office 
of the chief information officer and retirement operations, and 
would look forward to having the Chairman and any other 
interested members of the subcommittee participate in that 
briefing.
    Acting Director Weichert was pleased to host Ranking Member 
Meadows just last week for this briefing, and his staff 
conveyed to us that the visit really highlighted the 
operational challenges facing OPM and they were highly 
impressed by the commitment to service of OPM employees. OPM 
leadership also holds this high regard for our employees.
    OPM leadership shares that there's no substitute for seeing 
firsthand the hard work of our Federal employees as they 
overcome technological barriers to serve the American people, 
and we see this briefing as a critical way to continue the 
dialog between Congress and OPM.
    Additionally, we are compiling thousands of pages of 
information to share with the committee. While we must strive 
to respect executive branch interests, we are also committed to 
continuing to engage with the subcommittee members and staff to 
provide information and receive constructive feedback on the 
reorganization proposal.
    As you are aware, the transfer of OPM background 
investigations' functions and related staff and resources to 
the Department of Defense derives from a congressional mandate. 
This transfer will create a funding gap for OPM that compounds 
existing structural challenges that the agency faces.
    On June 13, OPM and DOD held a tollgate meeting to finalize 
the DOD buyback of general services OPM would continue to 
provide to support background investigation operations during 
Fiscal Year 2020 after the transfer of those functions. That 
same afternoon, OPM staff briefed staff of this subcommittee 
and committees from appropriations and the Senate on those 
deliberations. This is an example of our commitment to 
transparency and engagement with Congress and what we will 
continue to display moving forward.
    Thank you for having me here today. OPM leadership is 
heartened that Congress has acknowledged the fundamental issues 
facing our agency, and we are optimistic that together we can 
work toward solutions. I look forward to answering your 
questions and continuing to engage with the committee as we 
work together toward reforms that best serve the American 
people.
    Thank you, Chairman.
    Mr. Connolly. Thank you, Mr. Billy.
    I had the opportunity to go to a demonstration outside of 
OPM earlier this week, and I'm sure it would come as a 
reassuring message to know how committed leadership is to its 
work force at OPM, because morale was pretty low.
    Mr. Borden.

   STATEMENT OF ROBERT BORDEN, CHIEF OF STAFF, U.S. GENERAL 
                    SERVICES ADMINISTRATION

    Mr. Borden. Chairman Connolly, Chairman Cummings, members 
of the subcommittee, good morning, and thank you for the 
opportunity to answer your questions about GSA's ongoing 
efforts to assist the committee.
    I joined GSA as its chief of staff in June of last year. 
Before joining the agency, I spent 23 years working in the 
House of Representatives, including eight at this committee. 
Most of my career in the House----
    Mr. Connolly. Mr. Borden, excuse me, but I think you also 
worked for my predecessor, did you not?
    Mr. Borden. Yes, sir.
    Mr. Connolly. Yes.
    Mr. Borden. Much of my career in the House was dedicated 
to--and I'm glad his portrait is now hanging back there.
    Mr. Connolly. Well, you can thank Mr. Cummings. It took a 
Democrat to put the Republican chairman's pictures back on the 
wall. Sorry.
    Mr. Borden. Much of my career in the House was dedicated to 
oversight and investigations. In addition to this committee, I 
worked on significant investigations at the Education and Labor 
Committee as well as two select investigative committees. I've 
had the honor of serving two majority leaders as director of 
oversight. I've also had firsthand experience conducting 
oversight over four different administrations.
    I believe no one has a greater respect for the value of 
congressional oversight or this committee's role as the House's 
principal investigator. Administrator Murphy, herself a former 
congressional staffer, shares my respect.
    In the last seven months, GSA has provided more than 34,000 
pages of documents to Congress. We have created working groups 
to coordinate our efforts to respond to each of your requests 
and committed considerable resources to those efforts.
    We have provided more than 17,000 pages of documents to 
this committee regarding the revised FBI headquarters plan, and 
nearly 16,000 pages of documents regarding the old post office 
outlease. Finally, our staff have stayed in regular 
communication with the committee, offering to focus production 
efforts on your priorities, sharing our search terms, and at 
your request, broadening the scope of document searches.
    While I understand I am not here today because you are 
satisfied with our efforts, I do hope my testimony will convey 
the sincerity of our interests in complying with your requests. 
We do want to work with you to accommodate the legislative 
branch's oversight interests, while safeguarding the executive 
branch's legitimate confidentiality interests.
    I thank you for your time and look forward to your 
questions.
    Mr. Connolly. Thank you, Mr. Borden.
    Ms. Tyson.

   STATEMENT OF JILL C. TYSON, ASSISTANT DIRECTOR, OFFICE OF 
     CONGRESSIONAL AFFAIRS, ON BEHALF OF FEDERAL BUREAU OF 
                         INVESTIGATION

    Ms. Tyson. Good morning, Chairman Connolly, Chairman 
Cummings, Ranking Member Meadows, and other members of the 
committee. My name is Jill Tyson. I'm an assistant director of 
the FBI. I oversee the Office of congressional Affairs and I 
manage an outstanding team of special agents, professional 
staff, and attorneys. I'm honored to be here today representing 
the FBI's 37,000 dedicated men and women.
    As a career DOJ employee, I've worked with many members of 
this committee and also with your staff; however, this is a new 
vantage point for me as it's my first time testifying. My 
comfort zone is definitely sitting behind the witness.
    I'm here today to discuss the FBI's significant ongoing 
efforts to provide information to this committee regarding the 
FBI headquarters project. We've taken a number of steps to 
respond to the committee, including producing documents on a 
rolling basis, providing a briefing by a subject matter expert, 
and offering a second subject matter expert to brief the 
committee. Before I get into the specifics of those efforts, 
I'd like to briefly discuss the FBI's need for a new 
headquarters facility.
    The FBI appreciates the committee's interest in FBI 
headquarters because, as you know, the building has been 
deteriorating for some time. The FBI headquarters project 
really began to take shape in 2013. The procurement was 
canceled in July 2017, however, due to a lack of dedicated 
appropriated funding. This gave the newly confirmed Director, 
Christopher Wray, an opportunity to take a fresh look at the 
project.
    As Director Wray has said repeatedly, it is the FBI's 
strong preference to remain at our current location at 935 
Pennsylvania Avenue. This is in order to balance overall 
mission requirements, including improved security, optimal 
transportation options for FBI employees, close proximity to 
our partners and public visitors, and a consolidation of the 
FBI's national capitol region footprint.
    Now turning to oversight. The FBI values the important role 
of congressional oversight. As Director Wray and Attorney 
General Barr have stated, the FBI and the Department of Justice 
are committed to accommodating the committee's informational 
needs. In every instance, we strive to provide Congress as much 
information as possible. We must do so without compromising our 
law enforcement and national security efforts as well as our 
investigative and prosecutorial responsibilities.
    We are committed to working in good faith to accommodate 
this committee's legitimate oversight interests. We hope the 
committee will in turn continue to engage in good faith with 
the FBI and recognize the importance of our law enforcement and 
confidentiality interests.
    The FBI has found the committee's March 6 letter to present 
some unique challenges, given its breadth and the multiagency, 
multiyear complexity of the headquarters project itself. Due to 
the nature of the search for FBI headquarters and renovation in 
similar terms, our initial collection yielded an exceptionally 
broad return. We are actively working through it and taking a 
surgical approach based on what we believe the committee has 
articulated it is seeking.
    Consistent with longstanding and well-accepted 
accommodations process, the FBI has already taken significant 
steps to respond to the committee's request for information. 
Those include: The FBI has surged resources. We have assigned 
additional agents, attorneys, and professional staff to work on 
the committee's requests and support the document review. 
Second, the FBI has provided a briefing by a subject matter 
expert. Third, the FBI has offered the committee an opportunity 
to interview the most senior official who oversaw the FBI 
headquarters project. And fourth, the FBI has produced 
approximately 1,300 pages of relevant documents. These 
documents include substantive agency communications, 
information about relevant meetings, and documents pertaining 
to the decision to demolish and rebuild the FBI headquarters.
    We appreciate the committee's efforts, particularly in the 
last week, to focus some aspects of its requests. In fact, 
because of your input, FBI and GSA were able to make a large 
production of dozens of reports yesterday totaling 
approximately 800 pages. We believe these are directly 
responsive to the committee's interests. Such input from the 
committee will help us be more efficient in our processing of 
documents and more targeted in the information that we produce 
of interest to the committee. This is the type of collaboration 
that the FBI welcomes and hopes the committee will continue.
    In conclusion, the FBI and the Department of Justice 
recognize that congressional oversight is an important part of 
our system of government. We remain optimistic that by working 
together cooperatively, we'll be able to satisfy the 
committee's oversight interests. We can do this while 
safeguarding the independence, integrity, and effectiveness of 
the FBI's vital law enforcement and national security 
responsibilities. I would be happy to answer the committee's 
questions.
    Thank you.
    Mr. Connolly. Thank you.
    I would just say, before I call on the distinguished 
Chairman for his questioning, two points. One is, the use of 
the word legitimate inquiry. One needs to be very careful. The 
legislative branch will not be lectured by the executive branch 
as to what constitutes a legitimate inquiry. That's our 
business. We decide what's a legitimate inquiry, not you.
    We will not be delimited by the executive branch in our 
inquiries, and I will point out that court rulings uphold this. 
I'll turn to my professor friend, Mr. Raskin, a little bit 
later to confirm this, but every court that's ruled on this has 
said it's an inherent function of the legislative branch and 
it's up to them to decide the nature of an inquiry, not you.
    And I don't know if that's what you meant, Ms. Tyson, in 
the use of the word ``legitimate,'' and we'll get into that, 
but I just want to assert that. And second, while I appreciate 
your version of history in terms of the RFP for the FBI 
headquarters, unfortunately for you, there's an eight-year 
history that goes before Mr. Wray's decision or somebody's 
decision to abruptly change the terms of reference and actually 
pull the plug on what was about to be an award, and that has 
more than our curiosity.
    So we have different versions of history, and we'll 
certainly explore that.
    The chair now calls upon the distinguished chairman of the 
full committee, my friend, Mr. Cummings from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all, let me go back, Mr. Chairman, to what you 
just said. I agree with you a million percent with regard to a 
legitimate interest and what we investigate. We are blessed on 
this committee to have broad jurisdiction, and as was stated in 
Mazars, the Mazars case, I mean, we--they reiterated what you 
just said. So I want to thank you for saying that.
    Now, Ms. Tyson, this committee has asked the FBI to produce 
documents that memorialize the administration's decision to 
reverse the longstanding plan to move FBI headquarters to a 
suburban location. We have been told that no final documents 
exist.
    Ms. Tyson, is that correct?
    I can't hear you.
    Ms. Tyson. Congressman, as you're aware, the FBI's in the 
process of reviewing and processing and producing documents. I 
can only speak to the 1,300 pages or so that we've produced 
thus far.
    Mr. Cummings. So are there really no formal decision 
documents related to this project?
    Ms. Tyson. I believe in the course of our production, sir, 
you will find a number of documents that do, in fact, indicate 
the direction and decisions of the FBI headquarters project.
    Mr. Cummings. So if true, I find it highly troubling that a 
decision, you know, relocating thousands of FBI staff and 
costing billions of taxpayer dollars would be made without 
significant paperwork explaining that decision. And, Ms. Tyson, 
we've also requested all of the other documents relating to 
these discussions and this decision.
    Ms. Tyson, will you commit to provide that material to the 
committee?
    Ms. Tyson. Sir, again, we are absolutely committed to 
pulling, reviewing, processing, and producing documents to the 
committee.
    Mr. Cummings. How many people are working on that 
particularly production?
    Ms. Tyson. Sir, we have multiple divisions working on it. I 
believe there are at least three or four at this point. We also 
surge resources in recent weeks in terms of taking agents, 
professional staff, and attorneys off of other projects in 
order to expedite the production.
    Mr. Cummings. Yesterday, you provided drafts of a joint 
presentation that was made to the Senate. This was a welcome 
first step, but you did not produce the communications around 
the presentations, as we have requested.
    Now, Ms. Tyson and Mr. Borden, will you commit to providing 
the communications related to the development of this 
presentation soon?
    Mr. Borden. Chairman Cummings, we've had discussions with 
your staff regarding the email communications that surround 
these draft reports that were put together, my understanding, 
and I could be mistaken, but we'd asked for a date range of 
those emails and haven't received that yet.
    Mr. Cummings. I promise you, we will get them immediately 
to you. So we get you that date range, you will work within 
that date range to get us what we want?
    Mr. Borden. We haven't put eyeballs on those emails yet, so 
we don't see any reason why we wouldn't be able to turn them 
over, but we do need to look at them first.
    Mr. Cummings. We'll give you the date range.
    Ms. Tyson and Mr. Borden, the committee is specifically 
requesting your decisionmaking materials in draft and final. We 
have worked with your staff to prioritize those of highest 
interests and will continue to do so. These documents are key 
to our investigation as we're trying to understand how the 
decisions were made, what factors were considered, and who 
influenced the decision.
    Have your agencies decided not to provide the committee 
with the documents, certain documents?
    Ms. Tyson. No, sir, I've not received such instructions.
    Mr. Cummings. Can you commit today to provide the committee 
with these documents?
    Ms. Tyson. As my colleague, Mr. Borden, said, we are in the 
process of pulling and reviewing documents. I can't make a 
blanket commitment without having seen the documents, but we 
are certainly committed to working with the committee and 
providing as much information as we can.
    Mr. Cummings. I understand that many of the documents have 
gotten stuck in an interagency group that has not decided to 
produce the documents to us yet. How long have those 
discussions been going on? What is taking so long? And why has 
the decision not been made?
    First of all, is there a spat in the interagency?
    Go ahead, Mr. Borden.
    Mr. Borden. I'm not aware of any disagreement between the 
agencies. It does definitely draw out the time it takes to be 
responsive when we have a lot of agencies to coordinate with, 
but I'm not aware of any disagreement there, no, sir.
    Mr. Cummings. You may go on.
    Ms. Tyson. Likewise, Mr. Chairman, I'm not aware of any 
disagreements. In fact, I think our agencies are working 
exceptionally well. We've both surged resources and have great 
lines of communication that are open as a part of this 
production.
    Mr. Cummings. Mr. Chairman, my last question.
    Finally, Ms. Tyson, I understand that the FBI has agreed to 
provide Mr. Richard Haley for a transcribed interview in mid-
July in response to our requests. We accept your offer and 
thank you for agreeing to make him available; however, I want 
to make one additional comment. Will you commit today to 
producing Mr. Haley's documents before the interview?
    It really works against us, it works against us when we get 
documents after the interview.
    Ms. Tyson. Yes, sir. I understand. I believe that we are 
trying to process Mr. Haley's documents as quickly as possible. 
We have been waiting for several weeks to get a date for his 
interview, and I certainly appreciate that the committee is 
going to be willing to do that with us.
    Mr. Cummings. Very well.
    Mr. Chairman, thank you so much for your courtesy.
    Mr. Connolly. Absolutely. Thank you, Mr. Chairman.
    The gentleman from Georgia, Mr. Hice.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Mr. Billy, how many documents--I don't believe in your 
opening statement that you gave a figure of how many documents 
have been produced to the committee.
    Mr. Billy. To date, I believe we've produced around 400. 
We've got a few thousand more that we are finalizing the 
production of to turn over to this committee.
    Mr. Hice. What's taking so long?
    Mr. Billy. So a lot of the documents, as the acting 
director testified to a few weeks ago, are data and public 
documents that stretch back decades that we used in our--you 
know, to analyze the proposal. We're putting those together. 
We're working to categorize them that would be most helpful the 
way GAO is looking for them and this committee from the 
chairman's request, and so--another piece of this is that we're 
in ongoing process right now through our tollgate meetings, so 
we don't have a defined set of documents that we're working 
through.
    Mr. Hice. How many people are working to get that job done?
    Mr. Billy. We have multiple people from our general 
counsel's office, congressional affairs office----
    Mr. Hice. And multiple people, it doesn't take multiple 
people to get 400 pages. That's not a whole lot of pages. It 
sounds like there's a stall taking place.
    Mr. Billy. Absolutely not, sir. We're committed to 
providing information and compiling it and getting it to you as 
quickly as----
    Mr. Hice. Any idea of the 400 that have been submitted how 
much, percentagewise, have been redacted?
    Mr. Billy. Not off the top of my head, sir.
    Mr. Connolly. Would my friend yield and----
    Mr. Hice. Sure.
    Mr. Connolly [continuing]. I'll freeze your time, because 
you're making such a good point.
    We have a total of 524 pages, almost none of them 
responsive to the direct request we've made. 461 from OPM, 63 
from OMB.
    But to the point you just made, so we asked for, just tell 
us, cite the legal authority that you say you have to go 
forward. That's it. Redacted. The reference the legal authority 
makes to the meeting they had on the rationale, also redacted.
    Now, how the committee can do an inquiry as dispassionately 
as possible for people to make up their own minds, when 
that's--that's called responsive. That's part of that just 
voluminous 400 pages that they broke sweats over to give us. I 
think any reasonable Member of Congress can look at that and 
realize----
    Mr. Hice. We have a problem.
    Mr. Connolly [continuing]. that we have a problem.
    I thank the gentleman.
    Mr. Hice. Thank you, Mr. Chairman.
    And your point is right in line with what the concern is. 
Mr. Billy, you're not doing your job. There is a stall. It does 
not take multiple people to get 400 pages, particularly--or 
500, whatever it is, particularly when those pages are filled 
with redactions to questions that have no reason to be 
redacted.
    What is the legal basis for redacting basic answers to 
questions?
    Mr. Billy. So I'm not an attorney. I'm not able to talk to 
the specific about that. I know that we are--our attorneys are 
working to provide as much information as we can. There are 
some things that, where the legal analysis hasn't been 
completed, we don't have a legal analysis to provide at this 
time.
    Mr. Hice. Mr. Billy, that's totally unacceptable, your 
answer, and we expect to get the information that we request. 
Is that understood?
    Mr. Billy. Yes, Congressman.
    Mr. Hice. A couple of weeks ago, Acting Director Weichert 
was here, and there was a bipartisan call for documents 
relating to the OPM-GSA merger, specifically the legal analysis 
for the merger. Do you have any idea when that analysis will be 
provided to this committee?
    Mr. Billy. So attorneys are working across the agencies 
that are involved in this to finalize the legal authorities 
that currently exist, and as soon as that is done, we will 
provide that.
    Mr. Hice. Do you have any idea when that will be done?
    Mr. Billy. I don't have an exact timeline, no, sir.
    Mr. Hice. Do you have an estimate?
    Mr. Billy. We are hoping to have it as soon as they're 
completed. The attorneys are working daily on this.
    Mr. Hice. Mr. Billy, frankly, you seem quite ill-prepared 
for answers to questions that you should anticipate would come 
from this committee.
    What about the $70 million funding gap? We discussed a 
little bit of that where that money's going to come from.
    Mr. Billy. So the $70 million is caused by the mandate from 
Congress to transition NBIB operations to DOD. We have been 
able to mitigate that number from $70 million down to $23 
million. Just two weeks ago, we were in a tollgate meeting with 
the Department of Defense where we were finalizing the buyback 
numbers that would cement what our final funding gap would be 
for next year. We left that tollgate meeting with those numbers 
and came straight to the Hill to brief the committee staff from 
this committee, the appropriations, and the Senate committee, 
so that everybody knew, as soon as we had the information, what 
that final funding gap would be.
    I know that's information that this committee has asked 
for, as have other committees, and as soon as we had it, we 
brought it to this committee in an effort to continue 
engagement and be as transparent as possible.
    Mr. Hice. Mr. Borden, you've mentioned some 34,000 
documents that have been submitted. Do you have any idea what, 
percentagewise, has been redacted and what you have submitted?
    Mr. Borden. I should know better. To be clear, 34,000 pages 
of documents. I could probably get a document count for you as 
well. It's a little--happy to do that if that's helpful.
    I don't believe we've made significant redactions in what 
we've produced to this committee.
    Mr. Hice. Okay.
    Mr. Borden. I'll double check and happy to get you a count 
on how many redactions there are, but I think they've very 
minimal, if any, at all.
    Mr. Hice. Okay. My time's almost gone. Ms. Tyson, I just 
want clarification. Was the decision from the FBI location 100 
percent made within the FBI?
    Ms. Tyson. Sir, although the decision-making predates my 
tenure in the FBI, my understanding is that the decision was, 
in fact, made by Director Wray, certainly in close consultation 
with the Administrator of GSA.
    Mr. Hice. So no outside opinions or thoughts or discussions 
were taken into consideration?
    Ms. Tyson. Sir, I believe, as the Director has said 
repeatedly, that the decision was his.
    Mr. Hice. Thank you.
    Thank you, Mr. Chairman. I yield.
    Mr. Connolly. Thank you, Mr. Hice. And thank you for your 
commitment to, on a bipartisan basis, to the presentation of 
documents and the need for unredacted documents.
    The chair now calls upon the gentleman from Maryland, my 
friend, Mr. Raskin.
    Mr. Raskin. Mr. Chair, thank you for calling this urgently 
important meeting. And I also want to salute Mr. Meadows and 
Mr. Hice for their thoughtful comments and support for a broad 
and robust congressional investigatory power and the central 
importance of document production in the exercise of that 
power.
    I want to welcome all of our witnesses today, especially 
Mr. Borden, who's a distinguished former student of mine, a 
prized pupil from the late 20th century. And I can't tell you 
his grades because of the privacy laws, Mr. Chairman, but maybe 
another member in the committee will ask him for some more 
document production on that.
    Mr. Borden. It's for the best.
    Mr. Connolly. If I can interrupt the distinguished 
gentleman and freezing his time. The one thing Mr. Borden 
didn't fess up to was that he was a former student of yours.
    Mr. Raskin. I noted he gave a very detailed autobiography, 
but he excluded that point. I don't want to compromise his 
objectivity. We never agreed politically, but I always found 
him to be intellectually very engaged and astute.
    So, Mr. Chairman, you and the chairman of the full 
committee and Mr. Meadows, I think, have made the central point 
about these hearings, which is that Congress has a broad robust 
and comprehensive power that's been recognized by the Supreme 
Court and all the courts to investigate, and that is essential 
to representative democracy.
    I think it was James Madison who made the crucial point 
when he said, those who mean to be their own Governors must arm 
themselves with the power that knowledge gives. And that power 
which belongs to the American people has been vested in the 
Congress of the United States through the Constitution. We 
exercise the power of the people to obtain knowledge about 
whatever it is we want to legislate about. And so it is indeed 
up to us to determine what we're going to legislate about, and 
so it's up to us to determine what information we're going to 
get. And that demonstrates the absolute importance of complete 
compliance with the document requests of Congress.
    Now, I want to tell you a story about our Constitution, and 
I could proceed Socratically, Mr. Borden, if you want to answer 
the questions or else I could do it as a little lecture, but 
there are two provisions in the Constitution I want to focus 
on.
    One is the Foreign Emoluments Clause, which is in Article 
I, section 9, clause 8, which simply says that everybody in 
this room and everybody on the floor of Congress and the 
President of the United States may not collect a present, an 
emolument, which means a payment, an office or a title from a 
king, a prince, a foreign government of any kind whatever, of 
any kind whatever, without the consent of Congress, okay?
    And we went for more than two centuries with anybody coming 
close to creating a problem under the Foreign Emoluments 
Clause. You know, there were Presidents who got saddles for 
horses, there were Presidents who were given a Persian rug. All 
of them came directly to Congress and said, can I keep this or 
not? And Congress either said, yes, you can keep it, or no, 
it's a little bit too value. Turn it over to the State 
Department or make a deposit with the U.S. Treasury.
    There's another clause called the Domestic Emoluments 
Clause, which is Article II, section 1, clause 17, which says 
that the President may not receive any emolument from the 
United States or any of the states beyond his salary 
compensation. And we can't increase the President's salary and 
we can't decrease the President's salary, and he can't get a 
dollar more from a Federal Government or agency.
    Now, the story all changes with the Presidential election 
of 2016 and the inauguration of President Trump, who made a 
decision not to divest himself of any of his businesses and not 
to put anything into a blind trust. And since then, there have 
been reports that 24 different foreign governments have spent 
money at different Trump enterprises--hotels, office tower, 
golf courses, and so on.
    In 2019 alone, 17 officials of foreign governments stayed 
at the Trump Hotel just in Washington, DC, from 13 different 
nations, including Eduardo Bolsonaro, a Brazilian Congressman 
and the son of the Brazilian President Jair Bolsonaro. Also, 
the engineer of Brexit and the leader of the British UK party, 
Nigel Farage, and an official from the administration of 
Filipino President Duterte. Kuwait, the Kuwaiti Embassy spent 
between $50,000 and $60,000 there on a national day 
celebration, and so on.
    So the money is flowing in from foreign governments to the 
Trump Hotel, and President Trump continues to collect money 
from the Trump Hotel, as well as the office tower and the other 
hotels.
    Now, that hotel has a deal with the U.S. Government, 
through the General Services Administration, for the old post 
office building, which is Federal property, and they've got a 
lease. In the lease is a provision which I hope is boilerplate. 
It should be, if it's not, but I assume it is boilerplate, 
which just says that no government official, no matter how high 
U.S. Government or local in the District of Columbia, can 
derive any value or benefit from the lease. That's an echo of 
the constitutional prohibition on foreign and domestic 
emoluments, and yet we know all of this money has been flowing 
into the administration.
    Mr. Borden, is it GSA's position that any of the 
committee's requests about the lease with the Trump 
Organization do not serve a legitimate legislative purpose?
    Mr. Borden. No, sir.
    Mr. Raskin. Well, why is the GSA making arguments, that are 
also being advanced by the President's personal attorneys, that 
we can't obtain information about a government lease, a very 
valuable property which is controlled, owned by the U.S. 
taxpayers, the old post office building?
    Mr. Borden. Yes, sir. I believe we're talking about the 
financial summaries and all the documents and so forth that are 
produced to GSA under the lease. And the top line message I 
want to leave with you on that is that there are no documents 
that we're not willing to talk about producing to the committee 
working through the accommodation process.
    With regards to those financial documents, as in many of 
our arrangements with our business partners, there's a 
confidentiality provision, and the confidentiality provision 
says that these documents aren't to be produced outside of GSA 
without----
    Mr. Raskin. It says they may not be turned over to the 
United States Congress?
    Mr. Connolly. I'm going to have to interrupt the gentleman. 
You may finish, Mr. Borden.
    Mr. Borden. It doesn't reference the Congress at all. It 
does reference FOIA, and it's probably a weakness in that 
provision that's not in there. What it does say is that, with 
the consent of the tenant, we can do it or if it's required by 
law. And we are trying to work through the process of figuring 
out whether we can--and under what terms we can provide those 
to the committee in reference to the legitimate legislative 
purpose, when we sought the tenant's consent. That was a 
question that was posed to us, and we were bringing it back to 
the committee. It's not our place to answer for you. For this 
committee, I know very well rule X, clause 4(c), I believe, is 
quite broad and should be an easy question to answer.
    Mr. Connolly. Right. Knowing of your history of this 
committee, we would assume that your default is to give us 
more, not less.
    Mr. Borden. Yes, sir.
    Mr. Connolly. Yes. That's what I thought.
    Votes have been called. That is to say one vote has been 
called with respect to the rule. There are about 10 minutes 
left.
    We have time, Mr. Meadows, if you want to----
    Mr. Meadows. Yes, let me go ahead and go. And maybe----
    Mr. Connolly. And then we will recess and return.
    Mr. Meadows. All right.
    So, Ms. Tyson, let me come to you. I think it would be 
prudent for the FBI and maybe even Director Wray to come in and 
meet with the chairman and a few others that are very 
interested, I think would be the best word, in where we go with 
this.
    It is very clear to me, having talked with the President 
directly, it is very clear with me in talking with a number of 
people at the White House, that the FBI's location, whether it 
be in D.C. or anywhere else, they're agnostic. All they want to 
make sure is that Director Wray and some of the FBI agents can 
work very closely with DOJ in the proximity.
    If you would take the message back, if they're not tuning 
in, that really revisiting this situation with Mr. Borden's 
team and your team. I know that everybody feels like the 
decision has been made. It's going to get more complicated than 
that, I'm afraid.
    But I want to take one thing off the table. If you can get 
us as many documents as you can to be as transparent as 
possible with my Democrat colleagues to assure them that the 
President could care less on whether the location is there or 
anywhere else, if you would personally go back and look for 
those documents. And then if you get pushback from the Director 
or from the Attorney General on giving those documents, will 
you let this committee know if you're getting pushback on the--
delivering those types of documents?
    Ms. Tyson. Yes, Congressman. Let me try to answer your 
questions.
    No. 1, I'll be happy to take the message back. No. 2, yes, 
we're absolutely committed to getting the committee as many 
documents as possible as quickly as possible.
    I'll reiterate a request to the chairman that we've made 
several times to your staff, which is the more that we can 
narrow and focus the committee's request, the more 
expeditiously we can provide those documents.
    Mr. Meadows. So what they're looking for--and so I'll cut 
to the chase. What they're looking for is anything that has--
they're going to keep their request broad, Ms. Tyson. What 
they're really looking for is where there was undue influence 
on the decision to move the headquarters. So I'm not going to 
speak for the chairman, but I'm going to tell you, I bet that's 
what he's looking for. So if you will focus that request on 
that, I think the more you do that, the less pressure you'll 
get from the chairman. Okay? And that's----
    Mr. Connolly. Would my friend yield?
    Mr. Meadows. Yes, sure.
    Mr. Connolly. Not prejudice to his time.
    I think he makes a really good point. Two things. One is, 
aside from even suspicious thinking, and I freely confess we 
have some of that, it is a complete puzzlement that the FBI 
could, with a straight face, walk away from a rationale it had 
been propounding for eight years. I've been to many, many 
meetings and briefings. And I'm particularly struck by both the 
consolidation abandonment argument and the urban setback 
problem, which remains a problem in the current site.
    And the second point, and then I'll shut up. I think 
impliedly what my friend is saying is assume there's nothing 
there, assume this is as innocent as a newborn babe. The more 
FBI holds back on documents, the more it does a disservice to 
the President, given the suspicious nature of this town. And so 
maybe it's protecting FBI prerogatives, but it's not helping 
the President.
    And I restore my friend's time, and I thank him for 
allowing my intervention.
    Mr. Meadows. So, Ms. Tyson, without forcing you to answer. 
So let me just say, the reason why they're broad is because--
not just because of you, because you have been very honest and 
direct, and you have great credentials from someone I respect 
very highly at DOJ.
    And so in saying that, the reason why it's broad is because 
we have--time and time again, we have witnesses that come in 
here and they say, oh, you didn't ask for that, when they knew 
full well that that's really what we were asking for. And so 
that's why you get these broad requests. And so you're some--in 
some ways, it's a function of the games that get played between 
the executive branch and the legislative branch. And so I don't 
see you getting that in there.
    That being said, I don't tell the FBI how to do law 
enforcement. And I think it would serve Director Wray well to 
not tell this Member of Congress how to do real estate well. 
You know, he's not a real estate guy. And I'm telling you, I 
fundamentally so disagree with the decision that's made that--
and I'm trying to be--but it is wrong. It just is wrong. There 
is no way it is efficient use of the taxpayers' dollars. Not to 
say that you shouldn't have a presence there. I believe you're 
going to have to have a presence there. But the majority of the 
campus being outside the city will be cheaper. There's just no 
way. And I know GSA has all these different studies. But when 
you compare apples to apples, there's no way that it could be--
that it just would not be cheaper.
    That being said, we want to balance that function. And so, 
Mr. Borden, as you all look at that, the documents--I just want 
to say, GSA has been pretty good on some of the document 
requests. I will also say that you've got staffers that work 
with you and that I trust. And yet they worked with me, they 
didn't work with the chairman.
    And so in doing that, we've really got to get to the bottom 
of some of these documents as it relates specifically to the 
Trump Hotel. It's a big deal for him, less so for me. And yet I 
don't think--in fact, I know there's nothing to hide. So I 
guess what I'm saying, help us get the documents so we can take 
the political side of this out and start to make legislative 
questions.
    So, Mr. Billy, let me come to you at the end. Ms. Weichert 
and I--I have high respect for her, and I believe she's trying 
to do the very best for our Federal Government. In this 
reorganization, while we may disagree on that, we do agree on 
the fact that no Federal employee should be--it shouldn't be a 
slippery slope when Federal employees having to worry about 
their job. They have that commitment from the chairman, they 
have that commitment from me.
    Some of the lack of information that even in the re-org 
that we had made--the day I'm at OPM--a headline come out 
saying that we're furloughing people. And it caught me by 
surprise. So I'm having a great visit at OPM. You were there 
and some of your colleagues were there. And I come back to have 
to answer reporters' questions about furloughing employees. It 
embarrassed me because I felt like some of those OPM employees 
may have thought that I knew about that, and I didn't. And yet 
it's inconsistent with where I am philosophically.
    So the more information, Mr. Billy, you can get us as it 
relates to what you need, the better off we'll be. That make--
--
    Mr. Billy. Absolutely, Congressman. We're going to work--
you know, we're redoubling our efforts to get the information 
for you and the chairman on this.
    Mr. Meadows. All right. And we may end up prioritizing some 
stuff. And so as the chairman prioritizes it, just assume that 
we're speaking from, you know, the same voice. Okay?
    Mr. Billy. Absolutely.
    Mr. Meadows. I thank you all for your testimony.
    Mr. Connolly. I thank the gentleman.
    We're going to have to go into recess because we have one 
vote, procedural vote, and we will come back as soon as 
possible.
    If Mr. Raskin comes back before us, he is authorized to 
take the chair and gavel us back into session.
    We stand in recess.
    [Recess.]
    Mr. Raskin.
    [Presiding.] Welcome back to the hearing.
    I want to thank the witnesses for their patience. And I 
will now recognize myself for a second round of questioning.
    Let's see. I want to go back to the question of the 
Domestic Emoluments Clause, Mr. Borden. We talked about the 
Foreign Emoluments Clause, which was an attempt to guarantee 
the undivided loyalty of the President and all Members of 
Congress to the American people and not to foreign powers. And 
that's why there was this absolute prohibition on payments of 
any kind whatever coming from foreign governments.
    And so that's why we're very concerned to get as much 
information from the GSA about whatever you know and whatever 
you can find out about foreign governments using the Trump 
Hotel for business because of the President's continuing 
business ownership interest in the Trump Hotel.
    But the Domestic Emoluments Clause limits the President to 
his salary in office. And we can't increase it, we can't reduce 
it. But also it says that the President cannot receive any 
other payments from the U.S. Government or from any of the 
individual United States. And yet we have reports that the GSA 
gave the hotel $534,000 in Federal credit for maintaining the 
historic clock tour. Is that correct? Can I confirm that with 
you?
    Mr. Borden. I'd have to get an answer to you in writing on 
that. I don't know the numbers. I know there is an arrangement 
where they provide some services for the clock tower, like 
cleaning services. But I'm speaking off of----
    Mr. Raskin. Okay.
    Mr. Borden [continuing]. dim memory on this. But I'll get 
you an answer in writing.
    Mr. Raskin. So without pinning you down right now--although 
I would love the accurate information later. But without 
pinning you right down on the number, you can confirm that the 
GSA does have some arrangement in which it makes a payment to 
the hotel for keeping up the clock tower which is on the 
building?
    Mr. Borden. I'm working off of dim memory here, so I will 
get that answer to you in writing. But my recollection is there 
was an arrangement where some services, like cleaning, are 
provided to the clock tower.
    Mr. Raskin. Gotcha.
    Mr. Borden. And we're paying for that.
    Mr. Raskin. And in the first few months of the Trump 
administration, which is the only period in which we have any 
detailed accurate information at all from the Federal 
Government, taxpayers funded massive payments to the Trump 
properties such as the Trump Hotel in D.C. The Department of 
Defense spent $147,379.50 on Trump properties, including the 
Trump Hotel in Washington. The Commerce Department spent almost 
$4,000 primarily at the Trump Hotel in the first few months 
alone. We don't know how much the Department of Commerce spent 
after that period of time.
    The American people have a right to know how much is being 
spent there. And Congress, on behalf of the American people, 
has a right to obtain this information because we have to 
defend the integrity of the business practices of the 
government.
    NBC has reported that $56,000 has been spent by the 
Department of Defense, the Department of Agriculture, and the 
GSA itself at the hotel.
    Does the GSA actually occupy rooms at the hotel for 
business purposes?
    Mr. Borden. I'd have to check on the facts on that. But we 
often get tagged for spending that's not ours because it's 
going through one of our programs like FedRooms----
    Mr. Raskin. I see.
    Mr. Borden [continuing]. and so forth. Just in general on 
Federal employees staying at the hotel, as long as fits within 
the per diem, there's no prohibition on that.
    Mr. Raskin. Well, what legal authority or opinion are you 
relying on at GSA for continuing to allow Federal agencies and 
departments to spend money at the hotel or foreign governments 
to spend money at the hotel?
    Mr. Borden. I don't believe we have any authority over 
other agencies or foreign governments where they choose to----
    Mr. Raskin. No, no. I'm sorry. I meant legal authority in 
the sense of what precedent or what opinion--what legal opinion 
are you basing your acquiescence to these practices on?
    Mr. Borden. I'm not aware of a provision in the lease 
beyond the one that you mentioned in your previous statement 
that we've already--sort of been discussed, you know. But the 
agency has made a determination that the tenant is in 
compliance with that provision.
    Mr. Raskin. Wait. That provision says that no government 
official can profit and benefit in any way from the hotel. Is 
that not right?
    Mr. Borden. I don't want to characterize what the provision 
does or doesn't mean, but it was a legal opinion----
    Mr. Raskin. Well, you discussed--can you read it to us? Do 
you have it?
    Mr. Borden. It might take me a few minutes to----
    Mr. Raskin. Okay.
    Mr. Borden. Actually, I don't even think I have that one in 
my binder.
    Mr. Raskin. Maybe I can have someone hand it to me.
    But I understood it to be completely clear and unambiguous, 
crystal clear, that neither an official of the U.S. Government, 
an elected official of the U.S. Government, nor an elected 
official in the District of Columbia could benefit in any way 
from the lease. The GSA's position, I think during the Obama 
Administration, was that this would prevent the President or 
any other elected official from deriving profits from the 
hotel. And that position apparently changed with the new 
administration. Is that right?
    Mr. Borden. To my knowledge, there wasn't any official GSA 
position on that provision in the lease. The legal analysis 
that was done on that provision in the lease, and as discussed 
in the Inspector General's report, hinged on the admit to 
language in that provision. So it was a distinction between a 
continuing lease versus being entered into a lease, hence the 
admit to language, I believe, in that provision.
    I'm a lawyer by education, but I'm not serving as a lawyer 
for the agency.
    Mr. Raskin. I gotcha. Well, the inspector general of the 
GSA raised profound questions about this. In other words, he 
saw it as a prohibition on the President being able to collect 
money from the Trump lease.
    I mean, look, the commonsense perception of this is simply 
that the President as President of the United States, who 
oversees GSA, is acting as the landlord. But then on the other 
side, the President is acting as the tenant, so--look, the 
purpose of the Domestic Emoluments Clause was to say that the 
President has one way to make money off of his tenure as 
President, which is his salary. That's it. You're not going to 
get extra money from the Defense Department and the Commerce 
Department and the GSA and the State Department. And yet it 
appears that we're violating that.
    The purpose of the Foreign Emoluments Clause was to 
guarantee the independence of the President so he would be 
zealously devoted to the American people, not to the United 
Arab Emirates or Saudi Arabia or Turkey or Azerbaijan or 
somebody else who comes and decides to spend $50,000 or 
$100,000 at the hotel.
    So I guess what I'm troubled about is that we have a sense 
of urgency about getting to the bottom of this. The chairman of 
the committee sent on April 12, 2019, to Emily Murphy, the 
administrator at GSA, a letter asking for a whole lot of stuff 
that we haven't gotten back yet. For example, all documents 
referring or relating to Mazars USA LLP related to the old post 
office. Why? Because when the President acting as a businessman 
made his deal for the old post office, Mazars had to present 
all of the documents reflecting the financial condition of his 
company and where he's getting his money from, who he's doing 
his business with and so on. We want those documents, but we 
haven't gotten them.
    Do you know why those haven't been produced?
    Mr. Borden. So you're referring to the documents that--
before the lease was initiated establishing sort of financial 
wherewithal and so forth?
    Mr. Raskin. Exactly.
    Mr. Borden. We have that request from the committee. There 
are also some confidentiality provisions regarding those 
provisions, but we are willing to work with the committee and 
see how we can accommodate that.
    Mr. Raskin. Yes. I mean, you understand that when Congress 
makes a request for documents from anybody in the country, 
everybody's first instinct is to say, oh, we stamped it 
confidential. We got a rubber stamp, one of those blue ones, 
and we put it in the ink and then we stamped it confidential.
    What does that mean to us? We're the Congress of the United 
States. We're representing the American people. So everybody 
has a duty to present documents and witnesses that are being 
requested by Congress, unless there is a some kind of legal 
immunity that's been recognized by the Supreme Court.
    So I think that stamping a document confidential is beside 
the point from the standpoint of our wanting to see it. This is 
a lease that relates to the U.S. Government and it relates to 
the Constitutional powers of Congress and it relates to 
prohibitions on money going to the President of the United 
States.
    So, you know, I'm not detecting in your answer any 
intention to give us this stuff. Is that right?
    Mr. Borden. I think--I think that's wrong. The first thing 
I want to say, just in general, about $55 billion in contracts 
flow through GSA, and we have a lot of confidential financial 
information where we make arrangements to protect that 
information for our business partners, and that's one of the 
reasons they're willing to do business with us.
    However, we're not hiding behind this, and we are actively 
working with the committee and working our way as we can 
accommodate the committee's interest. And I would point out 
the--it's been mentioned that--I believe some of the monthly 
financial summaries had been produced earlier, and they showed 
up in The New York Times shortly thereafter.
    Mr. Raskin. Okay. Well, when you said you want to work with 
the committee, what exactly does that mean? In other words, 
that you do want to produce those financial documents or--I 
mean, I guess what I'm saying is, where is the blockade? 
Where's the blockage happening? Because GSA had no problem 
turning over materials like that before, and now there's a 
problem turning it over. And is it a problem in GSA? Is it a 
problem at the White House? Is it a problem with--is it a 
problem with Trump, the President? Is it a problem with Trump, 
the businessman? Is it a problem with the Trump Hotel? Like, 
where is the blockage coming from us obtaining the Mazars 
document?
    Mr. Borden. These are agency decisions, and we are trying 
to treat them. And it's obviously a unique situation, but we're 
trying to treat them the way we treat any other confidential 
business documents that the agency holds.
    And to answer your earlier question----
    Mr. Raskin. Yes.
    Mr. Borden [continuing]. which I don't think I got to is 
it's--the accommodation process, which a number of cases have 
referred to, is a process where the two coequal branches of 
government work through, legitimate interests that they're both 
trying to protect.
    Mr. Raskin. Yes. I see it a little bit differently. We are 
the lawmaking branch of government. We represent the people. 
The President's job is to take care that the laws are 
faithfully executed, not thwarted, not circumvented, not 
violated.
    And as the district court found in the Mazars case, 
upholding this committee's power to obtain documents. If this 
body has the power to impeach the President, which we do, we 
have, by definition, all of the subsidiary power to get any 
information that we need in order to investigate the President. 
And I think that that--that logical syllogism is just 
inescapable. The President doesn't have the power to impeach 
Congress. We have the power to impeach the President. So we are 
not coequal in that sense. We are the people's branch of 
government. We are the lawmaking authority. We pass the laws. 
The President's job is to take care that the laws are 
faithfully executed.
    So, you know, I wish there were some way we could break the 
logjam, because, you know, I've seen this process, and I think 
it's frustrating to members on both sides of the aisle where 
people will come from an agency or department and say, well, 
we're working on it, and so on. And then you don't hear 
anything from them for 2 or three months. They get called back 
and they say we're working on it. We're cooperating. And it 
looks like a shell game to everybody else.
    And so, you know, can you just tell me--this is going to be 
my final question along this line. What is the legal authority 
for GSA saying this is--that a government lease, a U.S. 
Government lease for the taxpayers is confidential and the 
representatives of the American people in the U.S. Congress 
can't obtain access to it? Well, what's the legal authority for 
that? Is there a Supreme Court case? Is there a D.C. Circuit 
Court case? Is there a U.S. District Court case? Where is that 
coming from?
    Mr. Borden. Sir, we're not making a legal assertion about 
these documents. We're, like I said, willing to work with the 
committee and try to accommodate the interest. As you know, 
there isn't Federal rules of oversight procedure. There's not a 
third-party magistrate calling balls and strikes, you know. But 
there's not--it's not something where you have motions and 
assertions and so forth. We are a----
    Mr. Raskin. All right. So you do advance no legal claim 
that you've got an immunity from us obtaining that document?
    Mr. Borden. I'm not sitting here advancing that. That would 
be something for our lawyers to do.
    Mr. Raskin. Okay. Well, but on behalf of the agency--I 
mean, I thought you just said you're not making a legal 
argument?
    Mr. Borden. The point I was trying to make is that the 
interaction between Congress, a committee of Congress, and 
agencies of the--entities of the executive branch in this 
accommodation process isn't taking place in a legal forum. It's 
a negotiation between coequal branches of government.
    Mr. Raskin. Okay. All right. Well, you know, I would love 
to do whatever we can to sit down and go through the documents, 
if you could give us a list of the documents that are----
    Mr. Borden. One thing I would like to emphasize----
    Mr. Raskin. Yes.
    Mr. Borden [continuing]. is simply I'm not trying to not 
answer your questions or just keep saying accommodation over 
and over again, which I recognize that I have, that we are 
sincerely interested in working through ways to provide these 
documents to the committee. And we stay in regular 
communication with the committee, and we know these are a 
priority for you, and----
    Mr. Raskin. Yes.
    Mr. Borden. So that makes them a priority for us.
    Mr. Raskin. I mean, I would just say, it is an absolute 
constitutional imperative for us to do our jobs, having taken 
an oath to uphold and defend the Constitution of the United 
States. And we represent the people. And there are very serious 
reports that are in the media that have come out in different 
cases that the Domestic Emoluments Clause is being violated 
frequently. The foreign government emoluments clause is being 
violated on an almost daily basis.
    We have an absolute responsibility to stop that if it's the 
case. You hold Federal office in America, it's not a money-
making operation. America is a great country. If you want to go 
out and make money, just go out and make money. But if you want 
to be President of the United States, be President of the 
United States. Your job is to collect your salary and do the 
people's business, not your business. But our job is to make 
sure that the Constitution is being respected, and the rule of 
law.
    I believe, based on what I've seen, which is not enough, 
which is why we're here today, but I believe, based on what 
I've seen, that the Trump Hotel and President Trump are in 
violation of the lease and the provision, which says that no 
elected official can be deriving any benefit from the lease, 
the old post office lease, with the Trump Hotel. I believe the 
President is in absolute and repeat violation of the foreign 
government emoluments clause, which provides that the President 
cannot collect a payment of any kind whatever from a prince, a 
king, or a foreign government. And I think he's in violation of 
the Domestic Emoluments Clause, which says that he's limited to 
his salary and he can't be pocketing money from agencies and 
Federal departments that spend money at the Trump Hotel or the 
Trump office tower or Mar-a-Lago or all of these other places.
    And what we're getting here, perhaps unsurprisingly but 
certainly unfortunately, is a stonewalling of the committee.
    So we are available 24/7. We will meet day, evening, night, 
whatever we need to do to convince you that this is information 
that we've got to get. And obviously, you know, we're in the 
process where we have been rendering subpoenas. We've been 
holding people in contempt. We know that President Trump 
ordered everybody in the executive branch to stop cooperating 
with congressional investigations. And I think what you saw 
today was a bipartisan expression of frustration with that 
attitude. There is nothing illegitimate about the 
representatives of the people obtaining documents that go to 
our constitutional duty.
    Let me turn for a second to Mr. Billy. Apparently, you 
testified--I just want to give you a chance to clear this up 
quickly. You testified that you were not a lawyer, under oath. 
According to the information the committee has, you do have a 
JD. It's just that you have a JD but you're not a lawyer. 
You've not taken the bar. Is that it or----
    Mr. Billy. Correct.
    Mr. Raskin. I gotcha. Okay.
    So the--I want to go to the legal underpinnings for the 
closure of OPM. And so let me come to you, Ms. Tyson, if I 
could--or, no, Mr. Billy, I'll come to you.
    How many formal legal opinions, which would all be 
responsive to our request, did OPM create or use that assessed 
the administration's authority to dismantle OPM?
    Mr. Billy. So the administration's proposal is about 
merging the mission of OPM and the mission of GSA, right, to 
make sure we have a stable and sustainable platform to deliver 
on those missions into the future. The legal analysis of what 
statutory authorities exist today to enact parts of the 
transaction are still undergoing.
    Mr. Raskin. So are there no existing formal legal opinions 
that you could hand to us that assessed the administration's 
authority to engage in this reorganization, as you describe it?
    Mr. Billy. I don't believe that there's any final documents 
that, you know, are ongoing--part of ongoing analysis.
    Mr. Raskin. Okay. Well, what was the legal analysis or 
guidance of the administration's authority to order this 
reorganization before the decision was made? In other words, 
did you just not consider it a matter for the lawyers?
    Mr. Billy. So the proposal came out at a high level in June 
2018, right? And that put forward kind of the view of what we 
believed as the possible, and we're continuing to now go 
through a tollgate process, which is a Six Sigma process. It's 
a best practice in the private sector for transformational 
change of this kind. And as part of that, we address the legal 
analysis.
    And so that is one workstream within the tollgate process. 
Additional workstreams include understanding what the impacts 
to our customers and stakeholders would be, impacts to our work 
force, how we can mitigate different things, how we can create 
more efficiency and effectiveness and service delivery. And so 
we----
    Mr. Raskin. So those were all the policy considerations you 
looked at. But why is the legal authority redacted in the 
documents that OPM provided yesterday?
    Can we put that back up on the screen? I just want 
everybody to take a look at them.
    So legal authority, that whole--that whole section is 
redacted out, which is the one part you think it would be the 
easiest to turn over because it's an interpretation of the law, 
right? So can you tell us why the legal authority is redacted 
in these documents that we received yesterday?
    Mr. Billy. Yes. So it's an ongoing process. The legal 
analysis is ongoing. And at this time, we don't have a final 
analysis to share.
    Mr. Raskin. Oh, okay. But why does that give you the 
authority to redact that? In other words, you're saying that 
the legal analysis might change or there might be more 
information given, but why is that justification for blacking 
out what the legal authority was when that memo was written?
    Mr. Billy. So our acting director has instructed us to 
provide as much information as we can to this committee, that 
we fully respect the oversight authority of this committee and 
want to continue working with you. Our attorneys are providing 
us, you know, guidance right now as we're going through 
interagency workings to determine what we're able to present 
and when. We're not withholding anything, you know, at this 
time. We're just going through the process of releasing it all.
    Mr. Raskin. Gotcha.
    All right. Mr. Billy, so if I'm reading the last several 
responses correctly together, there was no detailed legal 
analysis--or there was no legal analysis at all done of the 
proposed merger before it was accomplished. In other words, 
there was just an assumption that it was lawful. But how do you 
know that OPM has not been the subject of an illegal scheme? 
How do you know that you're not violating the law?
    Mr. Billy. So we know that--as you said, there's an 
assumption that some parts likely are able to be executed under 
current statutory authority. We are going through that 
analysis, and there are different authorities that could 
potentially move different pieces, how they would affect people 
versus resources. And so we are going through that full 
analysis together with our inner agency partners in this. And 
we provided a legislative proposal to this Congress to work 
with us to engage in the legislative process, because we 
believe it would be the most effective and efficient way to 
carry out the entirety of the transformation that we critically 
need for the agency to help us deliver on merit system 
principles moving into the future.
    Mr. Raskin. Okay. Well, look, in closing out this part of 
the hearing, I just want to say that OPM made a very 
significant decision, essentially, to dismantle itself or to 
dissolve itself without first obtaining any formal opinion as 
to the legality of this decision. And my first take on it, 
having looked at some of the legal authorities, is that the 
proposal is likely illegal.
    The administration came up with a plan and never took care 
to vet it or to assess its lawfulness. And there are obviously 
dramatic implications for this. So we will have to, you know, 
proceed there.
    I would just say generally, and I'll offer Mr. Meadows a 
chance to close if he has anything to say, but that I hope that 
all of the witnesses heard a very strong bipartisan sense that 
our ability to get documents is essential to our lawmaking 
function. And we will never allow that to become a partisan 
football. We are all committed that when Congress seeks 
documents, it gets the documents, because the lawmaking 
function is integral to what we do.
    Mr. Meadows.
    Mr. Meadows. Yes. So I would just agree with that. We just 
need the documents. This is not my first request for documents. 
When we were in the majority, Mr. Borden knows that I'm there. 
And when we talk about--Ms. Tyson knows that. Mr. Billy, maybe 
less so. But I can assure you that getting--and pages does not 
equal quality.
    And I guess what I would rather have is quality--I know 
it's real good to come here and be able to say, well, we gave 
you 30,000 documents or 30,000 pages. And I appreciate you 
making the difference, Mr. Borden, because you know it all too 
well. But enough said. I think you all have gotten the message.
    Here's the only other thing I would say. For the people who 
produce--that actually do your production, I would encourage 
all three of you to check in with them, because sometimes they 
act like they're making great progress, only to find out that 
they're not making as much progress as they would indicate. Oh, 
we're making great progress, and yet when you look at it, 
it's--and so if you would just check with the people who do the 
production, because I think some of that can be streamlined.
    Listen, this is not your first rodeo for any of the three 
of you. So if you'll just do that, I think we'll all be happy.
    And I have nothing further to add, so I'll yield back.
    Mr. Raskin. Mr. Meadows, thank you very much.
    Thank all of you for coming. And we look forward to working 
with you to complete the production process. Many thanks.
    The meeting is adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
